<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-138]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 116-138

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-585 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
      

[[Page (ii)]]



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 30, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    11
Ernst, Hon. Joni, U.S. Senator from the State of Iowa............    12
Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...    12
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois...    13
Braun, Hon. Mike, U.S. Senator from the State of Indiana.........    14
Van Hollen, Hon. Chris, U.S. Senator from the State of Maryland..   104
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................   106

                              LEGISLATION

Text of S. 1992, To amend the FAST Act to repeal a rescission of 
  funds..........................................................    79
Amendments to S. 2302, America's Transportation Infrastructure 
  Act:
    Carper Amendment #1--To establish set-asides for competitive 
      grants under the PROTECT grant program.....................    81
    Inhofe Amendment #1--To make certain marine highway corridor 
      projects eligible projects under the INFRA grant program...    84
    Revised Duckworth Amendment #2--To require a study of impacts 
      on roads from self-driving vehicles........................    87
    Revised Merkley Amendment #3--To modify the invasive plant 
      elimination program........................................    91
    Revised Van Hollen Amendment #3--To modify provisions 
      relating to funding for surface transportation system 
      funding alternatives.......................................    92
URL to the final version of S. 2302, America's Transportation 
  Infrastructure Act, as reported by the Senate Committee on 
  Environment and Public Works...................................    94
Committee Resolutions:
    Alteration, Consolidated Activities Program, Various 
      Buildings. PCA-0001-MU18...................................    95
    Alteration, Consolidated Activities Program, Various 
      Buildings. PCA-0001-MU19...................................    96
    Alteration, Seismic Mitigation Program, Various Buildings. 
      PSE-0001-MU18..............................................    97
    Lease, Department of Agriculture, Washington, DC. PDC-02-WA18    98
    Lease, Social Security Administration, Falls Church, VA. PVA-
      03-FC20....................................................   100
    Lease, U.S. Department of the Treasury, Bureau of the Fiscal 
      Service, Parkersburg, WV. PWV-01-PA19......................   102

 
                            BUSINESS MEETING

                              ----------                              


                         TUESDAY, JULY 30, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:09 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Boozman, Wicker, Shelby, Ernst, Cardin, 
Whitehouse, Merkley, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider two bills and six General 
Services Administration resolutions. Senator Carper and I have 
agreed that we will actually begin voting at 9:45. At that time 
I will call up the items on the agenda.
    So we are not going to debate the items on the agenda while 
we are voting. Instead, we will debate the items on the agenda 
before we begin voting.
    I would also be happy to recognize any members who still 
wish to speak after the voting concludes.
    This morning, we will consider two pieces of legislation. 
The first is a Barrasso-Carper-Capito-Cardin substitute 
amendment to S. 2302, which is America's Transportation 
Infrastructure Act.
    We will also take up S. 1992, which is a bill that I have 
introduced along with Ranking Member Carper to repeal a $7.6 
billion rescission in the Federal Aid Highway Program contract 
authority. I introduced America's Transportation Infrastructure 
Act along with our fellow leaders on the Environment and Public 
Works Committee, Ranking Member Carper, as well as Senators 
Capito and Cardin, who chair and rank on the Transportation 
Subcommittee. The legislation, as modified by the substitute 
amendment by the four of us, will make a historic investment in 
our roads, will cut Washington red tape, it will keep 
communities safe, and will help continue to grow America's 
economy.
    The bill authorizes $287 billion from the Highway Trust 
Fund over the next 5 years. This is the most substantial 
highway infrastructure legislation in history. Of that money, 
$259 billion, or 90 percent of the money, will go directly to 
our roads and bridges

[[Page 2]]

through the Highway Formula Funding, a program that has 
successfully worked in our States across the country.
    Formula funding gives each State the flexibility to address 
their specific surface transportation needs. By distributing 
the funding through this formula, the legislation will help 
every State in the Nation and keep projects moving ahead. It is 
good for rural areas, it is good for urban communities, it is 
good across the country.
    So between new authorizations, loan leveraging programs, 
State match requirements, and likely additions from the 
Commerce and Banking Committees, our bill's total impact on 
infrastructure will be nearly half a trillion dollars, which is 
a historic total. The bill will speed up project delivery, will 
cut Washington red tape so projects can be done faster and 
better and cheaper and smarter. It codifies key elements of 
President Trump's One Federal Decision policy, so the approval 
process for States is simplified.
    It also gives States increased flexibility and reduces 
their paperwork burdens. Important safety road projects, which 
take months to build, shouldn't take a decade to permit.
    The legislation will promote innovation and incorporate new 
technologies into road construction and management to expedite 
project delivery. Increasing safety is a top priority 
throughout the entire legislation.
    The legislation includes grant programs to incentivize 
States to lower the total number of driver and pedestrian 
deaths from car accidents. It also establishes a pilot program 
to build highways wildlife crossings to help mitigate the 
dangers created when animals cross major roads.
    America's Transportation Infrastructure Act establishes a 
competitive grant program to address the backlog of bridges in 
poor condition. Our bill will help build more durable roads 
that can withstand extreme weather events like floods, natural 
disasters such as wildfires and earthquakes and rockslides.
    The bill will also expedite the permitting of gathering 
lines on Federal land, and with tribal consent, Indian land as 
well. Gathering lines are small pipelines that help capture 
methane and reduce the venting and flaring of natural gas. They 
also help reduce heavy duty truck traffic servicing oil and gas 
wells. This provision is good for the environment and for 
American energy production and for public safety.
    This bill will also help reduce emissions from our 
transportation infrastructure by creating voluntary programs 
for States and reauthorizing successful programs like the 
Diesel Emissions Reduction Act. It also includes the USE IT 
Act, standing for Utilizing Significant Emissions with 
Innovative Technologies, something that has already passed 
through this Committee.
    Ranking Member Carper and I agree, this legislation must be 
paid for. We will work with Senate Finance Committee Chairman 
Grassley and Ranking Member Wyden to pay for the bill.
    One way to help pay for it is to ensure every driver using 
the roads is contributing to maintaining them. Right now, 
drivers of electrical vehicles don't contribute to the Highway 
Trust Fund.
    An electric car puts as much wear and tear on the roads as 
any other vehicle. They need to be paying their fair share in 
terms of a user fee for electric vehicles. Everyone who drives 
on our roads

[[Page 3]]

should continue to contribute, and if they are not contributing 
now, should contribute to the maintenance.
    The legislation will grow our economy, will create jobs, 
and will improve the quality of life for the American people. I 
want to thank Ranking Member Carper and Subcommittee Chairman 
Capito, Subcommittee Ranking Member Cardin, and all the members 
of this Committee for their partnership in writing this bill. 
America's Transportation Infrastructure Act is bipartisan, it 
is substantial, and it will help the entire country.
    Introduced yesterday, the bill already has support from a 
number of organizations: the American Association of State 
Highway and Transportation Officials; the U.S. Chamber of 
Commerce; the National Association of Manufacturers; the 
American Highway Users Alliance; the American Road and 
Transportation Builders Association; the American Council of 
Engineering Companies; the National Stone, Sand and Gravel 
Association; the National American Concrete Alliance; the 
American Trucking Association; and many more.
    Today, we are also going to consider legislation to repeal 
Section 1438 of the FAST Act, which rescinds $7.6 billion in 
Federal aid highway program contract authority on July 1st of 
2020. Ranking Member Carper and I agree that if this rescission 
isn't repealed, it will harm States, it will slow the economy, 
and it will cost jobs. We can't let that happen.
    Last, we will consider six resolutions to approve 
prospectuses providing for General Services Administration 
leases.
    I now would like to turn to Ranking Member Carper for his 
opening statement.
    Thank you, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    To our colleagues and everyone in the audience, welcome, 
and good morning.
    I want to begin today just by saying, Mr. Chairman, that 
under your leadership the members of this Committee and our 
staffs have been hard at work on this bill, as you know, for 
much of this year. I am enormously proud of the commitment and 
the unrelenting spirit of bipartisanship that have made today's 
business meeting possible.
    America's Transportation Infrastructure Act will 
reauthorize our Nation's surface transportation laws, and pave 
the way for an historic $287 billion investment in our Nation's 
roads, our highways, and our bridges in years to come.
    The fact that a bill as significant as this one also 
happens to be bipartisan really should not come as a great 
surprise to anyone. Because in a greater sense, our Nation's 
transportation infrastructure helps bring all Americans 
together, both literally and figuratively. Our roads, our 
highways, our bridges, connect us to one another.
    What we sought to do in this bill before us today is to 
address in a meaningful way a number of serious challenges 
across our transportation infrastructure, challenges that 
include but go well beyond filling potholes.

[[Page 4]]

    For example, we know that the cars, trucks, and vans that 
we drive have now become our Nation's largest source of global 
warming pollution. These emissions accelerate and exacerbate 
the effect of climate change, contributing to the increasingly 
extreme weather events that contribute significantly to the 
degradation of our roadways and our bridges.
    Our legislation includes the first ever climate title in a 
transportation bill. It calls for an investment of $10 billion 
over the next 5 years to combat climate change by reducing 
emissions, by improving the resiliency of our transportation 
networks, and supporting the growing market for alternative 
fuel vehicles.
    Additionally, we need to do more to improve the safety of 
our roads. In 2017, there were more than 37,000 fatalities--
37,000 fatalities--on our Nation's roadways. That included 
pedestrians and people on bicycles. That is a number of people 
greater than the population of either Dover, Delaware--our 
State's capital--or Laramie, Wyoming.
    Our legislation addresses this carnage by investing more 
than $3 billion per year in safety improvements through 
existing programs. Our bill creates and funds a new program 
that will compel States and cities with very high rates of 
pedestrian and bicycle fatalities to make needed safety 
improvements.
    We have also included funding to better facilitate wildlife 
crossings, as the Chairman has mentioned, and reduce the risk 
of collision with animals.
    Finally, perhaps, the greatest challenge of all is that our 
Nation's Highway Trust Fund is operating on the brink of 
bankruptcy. The highway account is running an $11 billion 
annual deficit, and that deficit is growing. The truth is, not 
only is our Highway Trust Fund going broke, our way of paying 
for it is broken as well.
    Although this Committee does not have the jurisdiction over 
the revenues to pay for this bill, in the spirit of identifying 
a long term fix to the solvency of the Highway Trust Fund, our 
legislation will continue to fund the State level vehicle miles 
traveled pilot programs established in 2015. Notably, our 
legislation also includes a national vehicle miles traveled 
pilot program, the first of its kind.
    The last 5 year reauthorization bill, the FAST Act, was 
largely paid for by a series of largely irresponsible budget 
gimmicks. One of these gimmicks was the rescission of $7.6 
billion worth of contract authority set to take effect this 
time next year. This resolution is causing tremendous 
uncertainty for States, for cities, and for businesses. We need 
to fix it.
    Today, we have the opportunity to do that. And we are 
considering a separate bill today, in addition to our 
reauthorization bill, to repeal this rescission. I hope that we 
will be able to pass this important fix before the start of the 
next fiscal year and to remove the cloud of uncertainty 
shrouding States as they try to plan projects for the coming 
year.
    I want to conclude this opening statement by reiterating my 
thanks to our Chairman, John Barrasso, to Senators Capito and 
Cardin, and to each member of this Committee, and to the 
members of our staff. We don't this stuff ourselves, as you 
know. And a lot of good work has been done by the people 
sitting behind me, and out in the audience watching as well.

[[Page 5]]

    I look forward to working closely in the months ahead with 
our colleagues on other committees of jurisdiction in order to 
bring a comprehensive transportation bill to the floor next 
year, and to ensure that this bill is paid for in a responsible 
way.
    America's Transportation Infrastructure Act will help make 
real the vision of a safer, better connected, efficient, and 
climate friendly transportation system, one that will endure 
the test of time and enable America to keep with the evolving 
demands of the world's biggest economy.
    When the voters Great Britain unceremoniously sent former 
Prime Minister Winston Churchill packing at 10 Downing Street, 
following the end of World War II, he was asked as he left 10 
Downing Street by a reporter, he said, Mr. Churchill, for you, 
is this the end. That is what he said, Mr. Churchill, for you, 
is this the end. Churchill famously responded; he said, ``This 
is not the end, this is not the beginning of the end, this is 
the end of the beginning.'' And so it is for us today, the end 
of the beginning. This business meeting marks the beginning of 
what is likely to be a journey with more than a few twists and 
turns, but it is a good beginning, and one that we can be proud 
of.
    I look forward to working in the months ahead with all of 
our colleagues on this Committee and over in the House, in the 
Senate, the Administration, and a multitude of stakeholders to 
make it even better, to make a good start even better.
    I don't know a lot of Latin, but two of the words I do know 
are carpe diem, seize the day. Or as they say in Delaware, 
Carper Diem.
    [Laughter.]
    Senator Carper. Let's go get them. Thanks very much.
    Senator Barrasso. Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman.
    I want to thank everybody here. When I was on the House 
side, for 14 years, I served on the Transportation and 
Infrastructure Committee. The reauthorization of this bill and 
the way that we have changed it over the years is always an 
exciting time, I think, and it certainly is that way in this 
Committee today.
    I was going to say to Senator Carper, in West Virginia, it 
is Capito Diem, but it didn't have the right ring to it.
    [Laughter.]
    Senator Barrasso. Cardin Diem is coming.
    [Laughter.]
    Senator Capito. It is Cardin Diem in Maryland, yes.
    Anyway, I want to thank both Senators Barrasso and Carper 
and also Senator Cardin for the good, hard work to get this 
legislation where we see it today. It authorizes our Nation's 
surface transportation infrastructure $287 billion over 5 
years. The scale and duration of this bill is essential to 
improving the roads.
    Americans count on it to safely and efficiently get to 
work, get to school, to the store, to drive on the family 
vacation, and to enable commerce on our freight corridors. 
Every member of this Committee has heard loud and clear from 
our States' departments of

[[Page 6]]

transportation that a long term bill is needed to prevent a 
return to the stop and start, short term bills that preceded 
the FAST Act and undermined their construction planning.
    I will say anecdotally, I had a telephone town hall 
meeting. Of the 13 questions that I took, 4 of them had to do 
with transportation. So this hits to every home.
    Ninety percent of the bill's funding will be allocated via 
formula, and every State's share is protected. Meaning all 
boats will rise with this funding increase. Our States will 
have maximum flexibility which they request, and we tried to 
provide, to direct their investments where they know they are 
needed, rather than at the direction of Washington.
    America's Transportation Infrastructure Act also includes 
important procedural reforms to the permitting process. We hear 
repeatedly how lengthy and timely and expensive it is, such as 
the One Federal Decision, to reduce costs and the seemingly 
endless delays that accompany transportation infrastructure 
package. I think our project stakeholders will be as excited 
about these provisions as they are about the additional 
funding.
    The legislation's bridge investment program will facilitate 
investment in our Nation's crumbling and increasingly dangerous 
bridges, an infrastructure need that is often overlooked in 
favor of higher profile projects, like new or expanded 
stretches of highway.
    I can say in my home State of West Virginia, 19 percent of 
our bridges are rated as structurally deficient. A dedicated 
source of bridge funding will help States like mine address 
bridge maintenance and replacement, keeping the public safe and 
preventing emergency closures from creating needless and long 
lasting congestion.
    I am also pleased that this legislation carries several 
provisions important to Appalachia. A balanced exchange program 
for States within the Appalachian Development Highway System 
will make more funding available to States working to complete 
their ADHS corridors, such as mine in Corridor H, through the 
heart of West Virginia.
    States with unobligated ADHS balances that have shifted 
their transportation priorities will enjoy additional 
flexibility to invest in other Federal highway system projects 
made whole by an existing funding source. This is truly a win-
win for our part of the country and all the Appalachian States 
involved.
    America's Transportation Infrastructure Act also follows 
the FAST Act with another 5 year reauthorization of the 
Appalachian Regional Commission, which by the way, my entire 
State is part of this. This language, which I wrote with the 
support of Ranking Member Cardin, Senator Wicker, and Leader 
McConnell, aligns the ARC's reauthorization with its recent 
appropriation history and doubles the set aside for another 
passion of mine, rural broadband deployment in our region.
    Another provision that I led with Leader McConnell 
authorizes the ARC to support the development of a 
petrochemical storage hub and its related downstream 
manufacturing, a potential game changer in terms of capital 
investment and job creation in central Appalachia.

[[Page 7]]

    I could go on and on, but I won't. America's Transportation 
Infrastructure Act has many more programs that I think will 
appeal to members on both sides of the aisle and from around 
the country, not to mention all the States, families, and 
individuals that will benefit.
    So I would like to thank my colleagues and their staffs. I 
would like to particularly thank my staff member, Travis Cone, 
for his dedicated service and his ability to really work all of 
our other staff members to create a great product.
    I would particularly like to thank, too, from Chairman 
Barrasso's staff, Richard Russell, Brian Clifford, Carl 
Barrick, Juli Huynh, James Wilson, Steven Barnett, and 
Elizabeth Horner. We all know, here, sitting at the dais, that 
the strength of this bill and the compromises that have been 
achieved have been achieved with their good, hard work. So I 
want to thank your staffs as well.
    This is a bipartisan solution to address key transportation 
infrastructure needs and opportunities, and I urge all members 
of the Committee to support this bill.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Capito.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    I really do want to thank you and Senator Carper for 
establishing the climate where we could get to a bipartisan 
transportation reauthorization bill, and to Senator Capito, it 
has been a pleasure to work with you as the Chair of our 
subcommittee.
    It is natural that a Senator from West Virginia and 
Maryland would work together, because in the western part of 
our State, the transportation is critically important for 
economic reasons. It is appropriate that I be working very 
closely with the Senator from Delaware, because we understand 
DelMarVa, and the needs for transportation, so the two border 
States.
    I don't want the Chairman to be left out. The last time I 
was in Wyoming, I appreciated the fact that you put a safety 
into this bill. Because as I was rounding a bend, there was an 
American Bison buffalo right in front of me. So I hope we can 
get better warning signs out in Wyoming to deal with the 
dangers.
    Anyway, this bill is an incredibly important bill, and it 
does represent the bipartisan work, not just of the four people 
that I have mentioned, the Chair and Ranking Member of the full 
Committee and subcommittee, the staff; I am so happy that 
Senator Capito mentioned the staff. They are the ones who stay 
up late at night; they are the ones who have to deal with our 
extra requests that we put in at the last moment to make sure 
it is dealt with.
    But also, every member of this Committee, and their input 
into this process, we thank you for that. Because this has 
truly been a collaborative effort. And it is a product that we 
can proudly support.
    As Senator Carper mentioned, this is the first surface 
transportation reauthorization bill that includes a climate 
title. I am glad

[[Page 8]]

that it does. It is the realities of more severe weather. We 
have to deal with resiliency and adaptation. That is our 
responsibility.
    Just this last month, we saw a record amount of rainfall in 
this region that caused the flooding of major highways during 
rush hour. We have to be able to deal with the realities of 
more severe weather.
    This bill recognizes that transportation is the leading 
source for greenhouse gas emissions, and we have a 
responsibility in the reauthorization to try to reduce the 
amount of greenhouse gases that are emitted.
    I think the infrastructure, particularly for electric and 
alternative fueled vehicles, represents not only our commitment 
to deal with the greenhouse gas emissions, but also to deal 
with the realities of consumer preference. These are vehicles 
that they want, and we have to make sure the infrastructure 
that we do for tomorrow meets the needs of the consumers in 
these types of vehicles. We give lots of discretion to local 
officials to come up with initiatives to deal with these 
issues, from using natural infrastructure to promoting walking 
and bicycling.
    The bill also deals with congestion. Now, if you are a 
Senator from Maryland who happens to live in Baltimore that 
commutes every day to Washington, believe me, congestion is on 
my mind twice a day. I recognize that we have severe problems, 
not just here in this region, but throughout the country.
    The delays and lost fuel have been estimated on an annual 
basis to be as high as $300 billion a year in lost productivity 
in this country. The fact that we are devoting resources to 
dealing with congestion makes a great deal of sense.
    There is a provision in here that I particularly want to 
acknowledge. It identifies and removes highway facilities that 
divide and isolate communities. We have to recognize that some 
highways that were built no longer function, and we should do 
things to make sure that our system is efficient and represents 
the needs of the community.
    I am particularly pleased, Mr. Chairman, that we have 
increased the funds that go to the Transportation Alternative 
Program. Senator Wicker has been my partner on this. I 
appreciate his help, so that local communities can have more 
input into their own needs as far as safety and tourism and 
walking and trails and biking and things like that.
    There is a section that deals with freight. Freight is an 
extremely important part of our objectives on an infrastructure 
reauthorization bill. Just this past week, Secretary Chao 
announced an INFRA grant to Baltimore for replacing a train 
tunnel that is about 120 years old to allow for double 
stacking, which is the way that freight moves through the 
coast.
    Yes, it is important to Maryland; it will mean jobs. But it 
is important for our entire region, for a more efficient 
freight system.
    It also helps, by the way, the truck traffic, because of 
the delays we have in the Port of Baltimore, wasting fuel and 
wasting truckers' time. So all that will be helped, and this 
section provides additional resources for the freight traffic 
here in the country.
    I already mentioned the safety issues, which I am very 
pleased we are giving initiatives for safety.

[[Page 9]]

    And I want to just second the comment of Senator Capito in 
regard to the Appalachian Regional Commission and the work that 
is done here in the reauthorization. It was a pleasure to work 
with her. I also want to acknowledge Senator Wicker's work on 
that.
    As Senator Carper said, this bill is a bill that I am proud 
to support. I want to make sure it moves forward. We know we 
still have more work to do, not necessarily under the 
jurisdiction of this Committee, but we have more work to do. So 
many of us serve on other committees that are involved in the 
transportation reauthorization, including the Finance 
Committee, which is going to have to come up with the 
financing. I am glad that Senator Carper is on that committee, 
and can figure out all those problems.
    But we also have several other members who serve on the 
Finance Committee and serve on the Banking Committee and serve 
on the other committees that are involved. Let's get this bill 
not only out of this Committee, but let's get this bill through 
the Congress and to the President. It is desperately needed, 
and I am proud to be part of it.
    Mr. Chairman, on an unrelated matter, we are going to be 
considering resolutions today. You were kind enough to hold 
back resolutions that I asked for to get clarification from 
GSA, dealing with the 2018 and 2019 consolidation activities 
program. I did hear from GSA that assured me that none of these 
funds are for the FBI new headquarters. I would ask consent 
that that letter be made part of the record, and I intend to 
support those resolutions.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you.
    Senator Barrasso. First, I am going to call on Senator 
Boozman, since he was the first one here today and asked to 
speak generically on the bill. Then we will head to other 
members with regard to amendments.
    Yes, Senator.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    I want to thank the big four for making this possible. 
Chairman Barrasso, Ranking Member Carper, Senator Capito, and 
Senator Cardin, I know how hard you have worked on this.
    Again, thanks to your staff on both sides that have worked 
in a very collaborative fashion. If it weren't for the 
bipartisanship that has been shown, we simply wouldn't have 
gotten this done. I think it is a great example for the rest of 
Congress.
    Our national economy thrives in part because of how 
interconnected the United States has been throughout its 
history. The ability to efficiently move goods and services 
across the country is a critical factor as to why the U.S. has 
been able to compete and thrive within the global marketplace.
    America's Transportation Infrastructure Act of 2019 is 
certainly a vital investment in our country. A safe, efficient 
surface transportation network is fundamentally necessary to 
our quality of life and

[[Page 10]]

our economy. This legislation provides long term certainty for 
States, local governments, along with good reforms and 
improvements to the programs that sustain our roads and 
bridges. Further, American's Transportation Infrastructure Act 
will improve upon safety, resiliency, while still ensuring the 
economy can grow and thrive for years to come.
    Our infrastructure needs can't be a partisan issue. Now is 
the time to push ahead and make sensible, productive 
investments in our Nation's infrastructure. We can no longer 
kick the can down the road and ignore infrastructure problems. 
It is time for the United States to be realistic about its 
infrastructure investment shortfall and start investing in 
infrastructure improvements today.
    One thing I also want to thank the big four for is that we 
have been concerned about the Sport Fish Restoration and 
Boating Trust Fund. This is something that actually will be in 
the Commerce Committee. There were some concern as to what the 
jurisdiction was. But I look forward to us working with the 
Commerce Committee to make sure this is done.
    This fund has been part of the highway reauthorization 
since 1984. It is the single largest fund for fisheries, 
conservation, and boating safety.
    So again, thank you all very, very much for your hard work. 
It is greatly appreciated.
    Senator Barrasso. Thank you very much, Senator Boozman.
    We have reached agreement on five amendments that we will 
consider by voice vote en bloc. Authors of those amendments 
will have the opportunity to discuss their amendments after we 
conclude our voting.
    I would now like to recognize members who filed amendments 
that they have agreed not to offer at this time, but we want to 
hear from as many as possible before we vote, and then return 
to others after we vote. So again, I want to thank all of you 
for agreeing to discuss your amendments before and after 
voting.
    Would any of the members like to be heard on any of the 
amendments you filed?
    Senator Ernst.

             OPENING STATEMENT OF HON. JONI ERNST, 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Ernst. Thank you, Mr. Chair.
    Before I speak about the amendment I filed, I would like to 
thank you and Senator Carper as well for your leadership on 
this bill, and of course, the rest of my colleagues that have 
provided valuable input. This is a really great bill. So thank 
you very much for doing this.
    My amendment, Ernst No. 1, strikes from the substitute 
amendment Section 1401, which authorizes $1 billion in grants 
for charging and fueling infrastructure for electric, hydrogen, 
and natural gas vehicles. Bottom line, folks, I want to make 
clear that I do support an all of the above energy approach. I 
don't have any issue with these fuels or technologies.
    But what I do have an issue with is the fact that this 
section neglects to include biofuels. Namely, the blends of E15 
and E85 and other advanced biofuel fueling technologies.
    I encouraged my colleagues on the Committee to include 
biofuels in the program, but there wasn't enough support to get 
this provision in the bill we are considering today. If all 
emissions reducing fuels aren't going to be treated equally by 
this program, then my preference is to do away with the program 
entirely.
    Under current law, folks can claim a Federal tax credit of 
up to $7,500 when they purchase an electric car. More than 80 
percent of these tax credits are utilized by individuals with 
an adjusted gross income of $100,000 or more. Now we are going 
to have the Federal Government subsidize charging 
infrastructure for electric vehicles, which are owned in large 
part by high earners in coastal States, while at the same time 
leaving our corn and soybean farmers and biofuel producers on 
the sidelines.
    I am not pushing for a vote on my amendment today, but I do 
plan to work with my colleagues to iron this out before the 
bill hits the floor. I think this program can be more effective 
if a broader range of fuels are eligible for this program.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator Ernst.
    Would any other Senators like to be recognized?
    Senator Rounds.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Rounds 2 is my amendment to Section 1401 of this 
legislation. This section creates the competitive grant program 
for strategic development of vehicle charging and refueling 
infrastructure along alternative fuel corridors. The goal of 
this grant program is to allow drivers of electric, hydrogen, 
and natural gas vehicles to travel along these corridors.
    My amendment keeps this program in place, while allowing 
additional alternative fuel vehicles to take part in these 
corridors by opening up the grant program to biofuel and 
propane powered vehicles. I think Senator Ernst and I are kind 
of on the same wavelength in this particular issue.
    Section 1401 authorizes a total of $1 billion over 5 years 
for this grant program. If we are going to invest in 
alternative fueling infrastructure, we should take an all of 
the above approach by opening this grant program up to popular 
alternative fuels that will help reduce our dependence on 
foreign oil.
    The United States Energy Information Administration's 2019 
Energy Outlook said, ``Alternative and electric vehicles gained 
market share in the referenced case, but gasoline vehicles 
remain the dominant vehicle type through the year 2050, with 
the combined share of sales attributable to gasoline and flex 
fuel vehicles at 75 percent in 2050.''
    Biofuels are already lowering carbon emissions in gasoline 
powered vehicles. An example, first generation ethanol reduces 
greenhouse gas emissions by between 34 and 39 percent. If we 
want to transition to a lower carbon transportation system, we 
cannot afford to leave any greenhouse emission reductions on 
the table.
    While I filed this amendment to include biofuels and 
propane infrastructure into this grant program, I understand 
that some members of this Committee have raised concerns about 
their inclusion

[[Page 12]]

at this time. For this reason, I will not be asking for a vote 
on my amendment at this time. But I hope to work with my 
colleagues to improve this grant program and to include 
additional alternative fuels in the future.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Duckworth.

          OPENING STATEMENT OF HON. TAMMY DUCKWORTH, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    I want to thank you, both you and your staff, for working 
with me to include my autonomous vehicle impact study 
amendment. I look forward to continuing a dialogue on this and 
other issues as we head to the floor.
    My amendment simply requires relevant Federal agencies to 
study the policy implications of autonomous vehicles on our 
transportation infrastructure. I think we all agree that AVs 
will transform our transportation system in the years to come, 
and it really makes sense to have the Department of 
Transportation begin contemplating smart implementation 
strategies.
    In its present form, my amendment requires the Federal 
Highway Administration to coordinate a study to better 
understand impacts of AV technologies on our existing and 
future transportation systems, and assess the steps that should 
be taken to ensure that we alleviate congestion, improve 
safety, mobility, and protect the environment. Federal agencies 
should engage in this analysis now to anticipate and to avoid 
future problems before autonomous vehicles operate throughout 
our Nation.
    We need to answer simple questions like, what does the 
proliferation of AVs mean for the number of vehicles on our 
roadways and congestion in our cities and suburbs, what changes 
to public infrastructure may be needed once these vehicles are 
mass deployed, what actions should Federal agencies take to 
avoid and mitigate negative impacts.
    This common sense effort can also inform our transportation 
planning and should account for self-driving vehicles. 
Addressing these questions sooner rather than later ensures 
that better and smarter deployment of AVs and a better plan to 
mitigate future stresses on our transportation system.
    Finally, Mr. Chairman, I would like to raise one issue that 
this bill does not address and should be included as we head it 
to the floor. As you know, many people remain unaware that low 
income communities and communities of color bear the brunt of 
the environmental burdens associated with our transportation 
networks. The Department of Transportation and State 
departments of transportation must work for everyone. And the 
Federal Highway Administration and other Federal agencies 
should employ an environmental justice strategy across all 
programs, policies, and activities.
    I look forward to discussing further environmental justice 
issues with you as this bill advances in the Senate. Again, I 
thank you for working with me on my amendment to address the 
impacts of AVs on our transportation infrastructure. I really 
appreciate your

[[Page 13]]

dedication to finding workable solutions on this and other 
important issues.
    Senator Barrasso. Thank you so very much, Senator 
Duckworth.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I want to applaud Senator Duckworth's leadership in 
including this amendment to study autonomous vehicles as part 
of our highway reauthorization. Like Senator Duckworth, and I 
know others on this Committee, too, I believe that EPW should 
play a leading role in ensuring the safety and environmental 
benefits of autonomous vehicles when they are deployed on our 
Nation's roadways, as they will be.
    I hope to be able to continue to work with you, Senator 
Duckworth, and our Chairman and everyone on this Committee who 
shares concern and interest in this issue.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Senator Braun, you wanted to make a comment.
    We do have a quorum, so we will then be moving to the vote.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. Yes, I will make it brief.
    I was involved in infrastructure at the State House in 
Indiana. We passed a long term road funding bill in 2017. Also 
involved our cities and counties to be part of the process, and 
was glad to see--we called it community crossings back there. 
The Crossroads of America Act tries to do the same thing, get 
States to be involved, have skin in the game; thank you for 
weaving that into the bill.
    Senator Baldwin and I have also had an idea that 
incorporates resiliency into transportation projects to where 
you actually learn from your mistakes, and you don't make them 
again.
    I have three amendments; one, Buy American. In the midst of 
the President's trade actions to bring China toward a more 
market based system, Congress must not undermine President 
Trump by weakening the very protections that ensure the steel 
in our roads is not made in China.
    Without a strong Buy America provision, the increased 
funding in this bill would merely incentivize China to continue 
its non-economic steel practices. This is similar to Senators 
Portman and Brown; Senator Baldwin is also supportive of the 
idea.
    My amendment tightens the requirements in three ways. It 
codifies the executive order from President Trump; it 
eliminates the use of blanket waivers, which agencies like 
Federal Highways have long used to avoid Congress's intent; and 
third, it instructs the Secretary of Transportation to review 
federally funded infrastructure programs and look for areas 
where Buy American can be strengthened.
    Each of these provisions lessens the ability of the Chinese 
government to access the American procurement market. For many 
workers, it can mean the difference between going to work on 
Monday morning and facing a furlough because of a closure or 
not adhering to the guidelines.

[[Page 14]]

    Two other ideas; Indiana was disappointed to see that the 
State was not included in the DOT's most recent round of INFRA 
grants. The State put together a proposal that paid for 81 
percent of the project. When States are willing to step forward 
to do that, it is hard to imagine why you wouldn't take it up 
on it.
    So I have two amendments that seek to reward States that 
are willing to put skin in the game, not deny them a grant 
simply because they have been doing something that makes them 
self-sufficient in their home State.
    To me, with the balance sheet that we have as a Federal 
Government, we should be welcoming enterprising States that are 
willing to pay for a greater share of infrastructure. We won't 
get it done here if we keep running our fiscal house like we 
currently are.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Braun.
    Well, we do have a quorum, so I would like to move to a 
vote on the items on today's agenda.
    The Ranking Member and I have agreed to vote on S. 1992, a 
Bill to Repeal a $7.6 billion Rescission in the Federal Aid 
Highway Program Contract Authority, and six General Services 
Administration resolutions en bloc, by voice vote.
    Members may choose to have their votes recorded for a 
specific item in that block after the voice vote.
    Now I would like to first call up the Barrasso-Carper-
Capito-Cardin Substitute Amendment to S. 2302, America's 
Transportation Infrastructure Act, that was circulated last 
Friday. The Ranking Member and I have agreed that this 
substitute shall be considered the original text for purposes 
of amendments.
    Members have filed amendments to the substitute. The 
Ranking Member and I have agreed to vote on five amendments en 
bloc by voice vote, but members may choose to have their votes 
recorded for a specific item in that block, after the voice 
vote.
    We have agreed to consider Carper No. 1, Inhofe-Boozman No. 
1, as filed. We have also agreed to consider Revised Duckworth 
No. 2, Revised Merkley No. 2, and Revised Van Hollen No. 3. We 
have agreed to revise the filed versions of these amendments to 
reflect necessary modification. I am pleased to accept these 
revised amendments.
    So I would like to first call up Carper No. 1, Inhofe-
Boozman No. 1, Revised Duckworth No. 2, Revised Merkley No. 3, 
and Revised Van Hollen No. 3 en bloc. I would ask that members 
withhold discussion of their agreed upon amendments until after 
we complete voting.
    Move to approve Carper 1, Inhofe-Boozman 1, Revised 
Duckworth 2, Revised Merkley 3, Revised Van Hollen 3 en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, say no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it, and Carper 1, Inhofe-Boozman 1, Revised Duckworth 2, 
Revised Merkley 3, and Revised Van Hollen 3 are agreed to.

[[Page 15]]

    Does any Senator seek recognition to offer an amendment?
    Seeing none, I move to approve the substitute amendment to 
S. 2302 as amended and report 2302 as amended favorably to the 
Senate.
    We will hold a roll call vote.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mr. Braun.
    Senator Braun. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. Aye.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk. Mr. Chairman, the ayes are 21, the nays are 
zero.
    Senator Barrasso. We have approved S. 2302, as amended, by 
a vote of 21 to zero. This will now be reported favorably to 
the Senate.
    I ask unanimous consent to enter into the record 87 letters 
and statements of support.
    Without objection, so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. I would now like to call up S. 1992, a 
Bill to Amend the FAST Act to Repeal a Rescission of Funds, and 
six General Services Administration resolutions en bloc.
    I move to approve and report S. 1992 and approve six GSA 
resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it.
    We have approved S. 1992, which will be reported favorably 
to the Senate. We will also approve six GSA resolutions.
    The voting part of the business meeting is finished, and I 
am very grateful that all of the members were able to be here 
and the proxies from a number of those who were not able to be 
here as well today.
    I agree and join with you and Senator Capito and Senator 
Cardin in thanking this remarkable staff behind us who has done 
a wonderful job to bring us all together in a bipartisan way to 
support legislation that is really going to make a significant 
difference for the people of this country. Thank you.
    Since the voting part of the meeting is concluded, a number 
of members who have filed amendments are here that they did not 
offer, others are here that may want to discuss amendments that 
have been taken up and adopted.
    Any members who would like to make a comment at this time?
    Senator Van Hollen.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
          OPENING STATEMENT OF HON. CHRIS VAN HOLLEN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Van Hollen. Mr. Chairman, I just want to join our 
colleagues in thanking you and the ranking member, Senator 
Capito and Senator Cardin, for your good work on this. I think 
this is a major step forward.
    It will also mean considerable additional resources to 
invest in transportation priorities around the country. I think 
Maryland will

[[Page 17]]

receive about $130 million more, if we, of course, take the 
next step to get all of this funded.
    I just wanted to mention one program I am pleased that we 
included in the base bill. Senator Cardin and I and others have 
been pushing for it; it is called Community Connectivity, a 
pilot program. This is a program to deal with past 
infrastructure projects that are unnecessary or have become an 
impediment to development.
    In West Baltimore, we have something called the bridge to 
nowhere, which is a bridge that was started many years ago, and 
literally, drops off.
    [Laughter.]
    Senator Van Hollen. So it has made it really difficult to 
develop that part of that city in a way that would benefit the 
residents. So I am pleased that this legislation now authorizes 
and provides funding for both studies and deconstruction in 
that particular area.
    I also just want to salute everybody for including the 
climate change resiliency and sustainability provisions. I 
think those are critical parts of the legislation.
    Finally, on the GSA leases, I want to second the comments 
my senior Senator from Maryland made regarding the FBI. I would 
also note that we are voting to extend the GSA lease for the 
National Institute of Food and Agriculture by 20 years.
    Some members of the Committee may have been following the 
fact that the USDA has proposed to move the NIFA to another 
State, which has created a lot of disruptions; many important 
and well respected scientists in the area of agriculture are 
going to be leaving their jobs and their service to the 
country.
    But I hope that those who choose to stay will be allowed to 
telecommute at least until there is a new building, a new 
permanent building where they can work, in what I think is 
going to be Kansas City. It makes no sense to tell employees 
that not only do they have to move a thousand miles but they 
have to move when there is no permanent location for a future 
NIFA.
    So I am glad that NIFA's lease is continued for another 20 
years. I would like to see them stay there another 20 years, 
and Senator Cardin and I and others are fighting to make sure 
that we keep them there where their expertise is required. But 
if they are required to move, I hope this Committee will work 
to make sure that that is done in a way that addresses the 
needs and concerns of the employees.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, if I just might, I concur 
with Senator Van Hollen's point in regard to the leases. 
Certainly with regard to the employees. It is very disruptive 
to move, unless there is a good reason you shouldn't, and there 
really is not a good reason.
    In regard to these highways, I was just whispering to 
Senator Carper when we were talking about this road, this road 
was actually authorized and built in the 1970s, if my memory is 
correct. So none of us were in the Senate or Congress at the 
time this was originally constructed.

[[Page 18]]

    It divides neighborhoods, and as I mentioned in my opening 
comments, I am glad that we have the ability to evaluate, 
identify, and hopefully remove these highways that are serving 
no purpose other than to divide communities.
    Senator Barrasso. Senator Braun.
    Senator Braun. Thank you, Mr. Chair. I would be remiss if I 
didn't mention that infrastructure, in my opinion, should be 
one of the things the Federal Government does, and does it in a 
way where we are doing it from a position of strength. I know 
as a main street entrepreneur and building my own business over 
37 years, when you do live within your means, and you have a 
solid balance sheet, it is amazing the opportunities that can 
come your way.
    Being one of the maybe few finance guys that is actually 
here in the Senate, I wish we would take note that regardless 
of which side of the aisle you are on, and for all the folks I 
see come to the Federal Government, wanting help for things 
that we have traditionally helped with, infrastructure should 
be at the top. Everyone benefits from it.
    But if you are managing your finances in a way that this 
place has, where I will never forget Senator Van Hollen's 
walking out of the door, said in the Budget Committee, 
political will. We need to get it, because I can tell you that 
the reconciliation, the way things will get fixed in the long 
run, will not be pretty. It is going to be a version of 2008, 
but it is going to impact the Federal Government.
    So I think we all need to be--regardless of what you want 
to do through the Federal Government--aware that running nearly 
trillion dollar deficits on $22 trillion in debt, it is not 
going to be good down the road. We have just not paid any 
consequences for it.
    Sadly, infrastructure will be the thing that is so capital 
intensive, it is somewhere between a $2 trillion and $3 
trillion enterprise over 10 to 20 years. It is just hard to see 
how you are going to do much about it when you are generating 
trillion dollar deficits.
    So I think it is all--it is incumbent upon us to figure out 
how we get out of the groove that we are currently in, and for 
the time that I am going to spend here in the Senate, I am 
going to take every opportunity to mention it.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Braun.
    I want to thank all members of the Committee.
    I do ask unanimous consent that the staff have authority to 
make technical and conforming changes to each of the matters 
approved today.
    Oh, I am sorry, Senator Whitehouse, thank you.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I just want to congratulate you, 
Chairman, and the Ranking Member, on the way in which this 
piece of legislation came together. There is a lot in here, I 
think, for all of us to be proud of.
    I am particularly proud of the Bridge Investment Act. Rhode 
Island has a lot of old bridges and badly worn bridges. Funding 
there will be put to very, very good use.

[[Page 19]]

    We have a lot of coastal infrastructure that is at risk. 
There are entire communities where, if the road goes out, you 
can no longer get emergency vehicles in to help rescue people.
    Port electrification is going to be really important to us 
with our Port of Providence and Quonset Port.
    Of course, the carbon reduction incentives program, I don't 
need to dwell on, but you all know where I am on that issue.
    I want to congratulate the Ranking Member for how hard he 
worked on charging infrastructure for electric vehicles. That 
is going to be terrifically important.
    I think we probably get around a little bit more by bicycle 
in Rhode Island than you do in Wyoming, Mr. Chairman, because 
distances are a little closer. We are really pleased with the 
Bicycle and Transportation Alternatives Program, which will 
make a big difference.
    The INFRA program is one that I designed in this Committee 
years ago. We just got a very big grant for a very big highway 
project in our capital city from that, and it is great to see 
that continue forward. I think you can do good, big things with 
all of that.
    I want to congratulate Representative Cicilline for his 
support and leadership on the House side of the Scenic Byways 
provision. We have nine in Rhode Island, and I appreciate that 
being included.
    USE IT is a bill of ours, Mr. Chairman, and I am very 
grateful to you for continuing to support our direct air 
capture efforts.
    For those of you who weren't with us, we went to Aberdeen, 
where the university is extracting carbon dioxide out of the 
air and creating little cubes of calcium carbonate from direct 
air capture. In fact, in Wyoming this summer, the XPrize is 
going to be considering that project, along with several 
others. So carbon capture is really coming along.
    And last, the diesel emissions bill is very important, 
particularly in urban areas where buses idle. So there are a 
lot of really good, bipartisan wins in here, and I want to 
thank you both very much, thank all the members very much.
    I also ask unanimous consent that I be deemed to have voted 
in person. I was a bit late coming to the vote, but I would 
appreciate that.
    Senator Barrasso. Without objection, so ordered.
    Senator Carper.
    Senator Carper. Senator Whitehouse is a champion on a lot 
of the issues he has just mentioned. We value his leadership 
and appreciate his joining us today.
    Senator Whitehouse. We hope to wrap up Innovative Materials 
by the floor. So thank you very much for your support with 
that.
    Senator Carper. Mr. Chairman, as you and I know, I don't 
read all the President's tweets, but I couldn't help but read 
one today. It said the Senator is working hard on America's 
Transportation Infrastructure Act. It goes on to say it will 
have a big impact--all caps, big impact--on our highways and 
roads all across our Nation. And just drawing from Republicans 
and Democrats, do I hear the beautiful word bipartisan? Yes, 
you do. Get it done, I am with you.
    Let me just say, those are his words. We welcome the 
President's words today, and that is supportive of our 5 year 
bipartisan surface

[[Page 20]]

transportation bill. We welcome even more his vocal support of 
responsible funding to fully pay for it in the years to come. 
The 800 pound gorilla in the room is always, how do we pay for 
this important stuff. We will need his vocal, active support.
    Thank you.
    Senator Barrasso. Thank you, thank you all for being with 
us today for this historic mark up. Thank you to all the 
members of the Committee and for the remarkable staff who has 
done such a great job.
    I do ask unanimous consent that the staff have the 
authority to make technical and conforming changes to each of 
the matters approved today.
    Without objection, that will be done.
    And with that, our business meeting is concluded and 
adjourned.
    [Whereupon, at 10:04 a.m., the Committee was adjourned.]

                            [all]
</pre></body></html>
